W                                                                         December 23, 1999




TO:             AO/Chief Information Officer

FROM:           Assistant Inspector General for Auditing

SUBJECT:        Final Report on Review of NASA’s Year 2000 Day One Planning
                Assignment Number A0002300
                Report Number IG-00-003


The subject final report is provided for your information and use. Please refer to the Results in Brief
section of the report for the overall review results. The report contains no recommendations and
management comments were not required.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-5665, or Mr. Roger W. Flann,
Program Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit staff.
The final report distribution is in Appendix C.


[original signed by]
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
bcc:
AO/ Audit Liaison Representative
AIGA, IG Chrons
ARC/204-11/D. Gandrud, Program Director
JPL/180-300/R. Flann, Program Manager
                                                          IG-00-003




REVIEW
                            NASA’S YEAR 2000 DAY ONE PLANNING
REPORT

                                     December 23, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
 Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

                Assistant Inspector General for Auditing
                NASA Headquarters
                Code W, Room 8V69
                300 E Street, SW
                Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at http://www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted by
law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

BCCP            Business Continuity and Contingency Plan
CIO             Chief Information Officer
GAO             General Accounting Office
NACC            NASA Automated Data Processing Consolidation Center
OMB             Office of Management and Budget
Y2K             Year 2000
                           NASA Office of Inspector General
IG-00-003                                                                      December 23, 1999
 A0002300
                        NASA’s Year 2000 Day One Planning


Introduction

The Year 2000 (Y2K) date conversion problem affects computer systems worldwide.
Software application programs that use a standard two-digit format (mm/dd/yy) to generate a
date may not work properly after the year 2000.

In January 1999, the NASA Chief Information Officer (CIO) issued a guide1 to the Agency’s
Enterprises and Centers relating to the development of business continuity and contingency
plans (BCCP’s). The Enterprise BCCP’s were to address major programs and projects. The
Center BCCP’s were to address Center core processes (including the Agency-wide services
provided by the Center), Center infrastructure, and mission-critical systems (158 in total)
identified in the Agency’s Y2K inventory.

In October 1999, the Office of Management and Budget (OMB) directed agencies to complete
their Day One2 planning and update their BCCP’s by October 15, 1999. Specifically, OMB
directed agencies to ensure that their Day One planning addressed seven key elements: schedule
of activity, personnel on call or on duty, contractor availability, communications with the
workforce, facilities and services to support the workforce, security, and communications with
the public. (Details on these key elements are in the Background section of this report.) OMB
also directed agencies to consider General Accounting Office (GAO) guidance3 in developing
the Day One plans.

Our review objective was to assess the adequacy of NASA’s Day One planning in the context
of OMB’s October 1999 requirements and GAO guidance. To accomplish this objective
within the short time remaining in 1999, we limited our review to determining whether the
NASA Year 2000 BCCP, dated October 15, 1999, adequately addressed seven key elements
of Day One planning as required by OMB. Also, we performed limited review procedures at
three Centers4 to ensure that the Agency-level BCCP

1
  The NASA guide is titled, “NASA Year 2000 (Y2K) Business Continuity and Contingency Plan Guide
(BCCP).”
2
  The General Accounting Office has defined the Day One strategy as a comprehensive set of actions to be
executed by Federal agencies during the last days of 1999 and the first days of 2000.
3
  The GAO Guide is titled, “Y2K Computing Challenge: Day One Planning and Operations Guide,” dated
October 1999. (GAO/AIMD-10.1.22)
4
  Goddard Space Flight Center (Goddard), Lyndon B. Johnson Space Center (Johnson), and George C.
Marshall Space Flight Center (Marshall).
accurately reflected Day One planning at those Centers. Details on our scope and methodology
are in Appendix A. We have issued seven other reports related to the Y2K issue; those reports
are summarized in Appendix B.


Results in Brief

Based on our limited review, NASA’s Year 2000 Day One planning strategy complies with
OMB requirements and GAO guidance. The Deputy NASA CIO attributed the Agency’s
compliance to frequent communications and close coordination between Headquarters and
Center CIO personnel, including a “face-to-face” CIO workshop in June 1999 and weekly
teleconferences. As a result of its compliance with the requirements and guidance, the Agency
should be adequately prepared to manage the date rollover from 1999 to 2000. This report
contains no recommendations for corrective action, and the CIO chose not to provide written
comments.


Background

To help ensure that Federal agencies are adequately prepared for the Day One rollover, OMB
provided broad direction to agencies to develop Day One strategies that include each of the
following seven key elements:

 •   Schedule of activity. The agency should schedule the activities that will take place
     before, during, and after the rollover from December 31 to January 1.
 •   Personnel on call or on duty. The agency should decide who must be on duty or on call
     to support the agency’s activities and when they will need to be available.
 •   Contractor availability. The agency should assure that its contractors are prepared to
     provide needed assistance.
 •   Communications with the workforce. The agency should assure the ability to
     communicate internally, with its contractors, with its partners in program delivery, and with
     its constituency as appropriate.
 •   Facilities and services to support the workforce. The agency should assure that
     buildings, telecommunications, transportation (including parking), food services, and other
     infrastructure needed to support its workforce will be available during the rollover period.
 •   Security. The agency should assure that special security measures are taken to address
     vulnerabilities created by events during the rollover period.
 •   Communications with the public. The agency should provide a capability to
     communicate with the public about the impact of the problem on the agency, the agency’s
     programs, and the agency’s constituencies.



                                                 2
OMB also directed that agencies consider the GAO Guide in developing their Day One plans.
The Guide provides a conceptual framework for helping agencies develop a Day One strategy
and reduce the risk of adverse Y2K impact on agency operations. It builds upon GAO’s
previously issued guidance5 on Year 2000 business continuity and contingency planning, and
draws on other sources, including the Social Security Administration, International Business
Machines Corporation, and the Legislative Branch Y2K Group.

As stated in NASA’s BCCP dated October 15, 1999, the Agency’s Day One strategy is
based on a heightened level of readiness, with additional staff for coordinating activities and
checking critical operational capabilities during the rollover period. Centers will follow
established processes and procedures for handling anomalies (for example, mission operations
and weather-related emergencies). Also, Centers will monitor status and conditions and take
necessary action at the lowest applicable management level, escalating attention to higher
management levels, as appropriate.


Agency-Level Day One Planning

Based on our review, the Agency’s overall Day One planning strategy complies with OMB
requirements and GAO guidance. Specifically, the NASA BCCP adequately addressed each
of the seven broad elements prescribed by OMB. For example, OMB required that agencies
establish appropriate plans to have personnel on call or on duty during the rollover period. The
NASA BCCP addresses the OMB requirement:

        NASA Centers will augment their normal holiday personnel with special Y2K-related staff
        during December 31 through January 2, 2000. Key civil service, Emergency Services, and
        contractor personnel will be on site or on call as needed to resolve anomalies. On-call or
        on-duty personnel, including both Civil Service and contractor staff, have been informed
        of the need for their availability.


By complying with each of OMB’s seven requirements and with the GAO guidance, the
Agency should be adequately prepared to manage the date rollover from 1999 to 2000.


Center-Level Day One Planning

Based on our review of selected Center-level BCCP’s and supporting documentation, the
Centers’ Day One planning strategies comply with OMB requirements and GAO guidance.
Specifically, we reviewed a total of seven programs at Goddard, Johnson, and Marshall to
determine whether their Day One planning adequately addressed OMB requirements for a

5
 The GAO issued a guide entitled, "Year 2000 Computing Crisis : Business Continuity and Contingency
Planning," August 1998.


                                                     3
"schedule of activity" and "personnel on call or on duty." Appendix A contains a list of the
BCCP's reviewed. The Center-level BCCP’s and supporting documentation adequately
addressed the two elements reviewed. For example, with respect to personnel on call or on
duty at the NASA Automated Data Processing Consolidation Center (NACC), at Marshall,
Day One planning documents included a schedule of service restoration teams. The schedule
identified team members and their responsibilities, on call as opposed to on duty status, and
required times and dates of availability. For each of the seven BCCP's reviewed, Center-level
Day One planning supports the Day One strategy described in the Agency-level BCCP.




                                                4
               Appendix A. Objective, Scope, and Methodology

Objective

The overall review objective was to assess the adequacy of NASA’s Year 2000 Day One
Plan. Specifically, our objective was to determine whether the Agency’s Day One planning
complied with OMB requirements and GAO guidance.


Scope and Methodology

Due to the short time remaining in 1999 to address Y2K issues, we limited our review to
NASA Headquarters and selected Centers. In conducting this review, we examined the Day
One strategy described in the Agency-level BCCP and performed limited review steps to
ensure that the Agency-level BCCP accurately reflected Day One planning at Goddard,
Johnson, and Marshall. Specifically, we:

    •   Interviewed NASA CIO personnel regarding the process used to develop an overall
        Day One strategy for the Agency.
    •   Reviewed OMB requirements and GAO guidance for Day One planning.
    •   Compared the Day One planning strategy described in the NASA BCCP to the OMB
        requirements and GAO guidance.
    •   Reviewed seven BCCP’s and supporting documentation at the three Centers for
        compliance for two of the OMB requirements and the GAO guidance. The two
        elements selected for review were "schedule of activity" and "personnel on call or on
        duty." We judgmentally selected these two elements because we determined they were
        the most significant elements. The Centers and BCCP's reviewed were as follows:
        - Goddard: (1) Facilities, (2) Mission Services Program Office, and (3) Management
            Operations Directorate/Information Services and Advanced Technology
            Division/Applications Development Branch.
        - Johnson: (4) Information Systems Directorate and (5) Mission Operations
            Directorate.
        - Marshall: (6) NASA Integrated Services Network and (7) NACC.
    •   Examined applicable records and documents dated from October through November
        15, 1999.


Management Controls Reviewed

We reviewed OMB requirements and GAO guidance to determine review criteria applicable to
Day One planning. Also, we evaluated the process NASA used in developing the Agency-level
Day One planning strategy and the procedures that the selected Centers will follow in supporting the
strategy. We considered the management controls to be adequate.



                                                5
                                                                            Appendix A

Field Work

We performed field work for this report from December 2 through 11, 1999.




                                              6
                   Appendix B. Summary of Prior Coverage

The NASA Office of Inspector General has issued seven final reports relating to the Y2K
problem. (Visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html for a copy of the reports.) The
reports are summarized below.

“Year 2000 Program Oversight of NASA Grants and Cooperative Agreements,”
Report Number IG-99-048, September 24, 1999. Research performed under grants and
cooperative agreements is important to NASA’s mission, and sponsored research represents a
significant portion of the Agency’s procurement activities. Without uniform and specific Y2K
reporting requirements, the Agency lacks reasonable assurance that it will receive research
results that are unaffected by erroneous Y2K date-sensitive data. Also, without timely reporting
by recipients, NASA may be unable to take appropriate remedial action by January 1, 2000.
Adequate oversight is needed to mitigate potential, costly Y2K-related problems and to protect
NASA’s substantial investment in basic research. NASA requires recipients to report
significant Y2K-related problems, but NASA has not established time frames for such
reporting. Additionally, NASA does not require recipients to report on whether recipient
computer systems are Y2K compliant. The combination of these conditions limits NASA’s
ability to determine whether Y2K-related problems exist but have not yet been reported. As a
result, the Agency lacks reasonable assurance that it will receive research results that are not
adversely affected by Y2K date problems or notification of such problems in time to take
corrective action. We recommended that NASA management request major recipients of
grants or cooperative agreements to report to the cognizant NASA procurement office by
September 30, 1999, on whether recipient computer systems are compliant and on significant
Y2K-related problems. Also, we recommended that NASA management require appropriate
remedial actions to address any Y2K-related problems identified by the major recipients.
Management concurred with each recommendation.

“NASA’s Year 2000 Program – Renovation and Validation Phases,” Report Number
IG-99-034, September 20, 1999. The Agency guidelines for the renovation and validation
phases were generally consistent with General Accounting Office guidance for addressing Y2K
date conversion problems. Also, for those inventory items reviewed, documented evidence
indicated general compliance with the Agency’s renovation and validation phase requirements at
five of the six locations audited. The Jet Propulsion Laboratory had generally complied with the
renovation and validation phase requirements for nonmission-critical systems (systems that have
minimal impact and risk), but had not progressed sufficiently for us to determine the adequacy of
its validation efforts for mission-critical systems (systems that have high impact or risk). The
Laboratory reported that it had completed the validation test phase for only one of four mission-
critical systems. Regarding NASA’s Y2K reporting to OMB, nothing came to our attention to
indicate a material problem. This report contains no recommendations for corrective action.




                                                 7
                                                                                  Appendix B

“Year 2000 Program – Implementation Phase,” Report Number IG-99-044,
September 17, 1999. Under the leadership of the NASA Chief Information Officer, the
Agency has been actively engaged in developing business continuity and contingency plans to
prepare for Y2K-related failures. However, as of June 30, 1999, the four NASA installations
reviewed had not incorporated various key elements into the business continuity and
contingency plans and contingency test plans. (NASA will be updating its business continuity
and contingency plans and test plans through November 1999.) Consequently, NASA lacks
assurance that it can effectively respond to Y2K-related failures. We recommended that the
NASA Chief Information Officer request Center and Enterprise managers to incorporate all key
elements in the business continuity and contingency plans and update the Agency's business
continuity and contingency plan guidance to address key test plan elements. Management
concurred with both recommendations.

“Exemptions for Year 2000 Testing,” Report Number IG-99-025, May 13, 1999. The
Johnson Space Center, Financial Management Division, completed testing of the Center
Financial System before NASA issued its July 1998 Testing and Certification Guidelines and
Requirements, but did not obtain an exemption from use of the NASA guidance. The Johnson
Chief Information Officer had not established procedures to implement the exemption process.
Without the exemption, the Center lacks reasonable assurance that the Center Financial System
will meet the minimum NASA testing requirements for Y2K compliance. We made four
recommendations related to procedures for testing and exemptions of information technology
assets that completed testing before the issuance of NASA’s testing guidelines. Management
concurred with the recommendations.

“Year 2000 Program Compliance Requirements in NASA Information Technology-
Related Contracts,” Report Number IG-99-022, March 31, 1999. NASA lacks
reasonable assurance that its systems will be Y2K compliant on January 1, 2000. The Agency
issued Y2K guidance for installations to follow when acquiring, operating, and maintaining
information technology assets. The guidance required contracting officers to include a clause
addressing Y2K in information technology solicitations and new contracts. Also, contracting
officers were required to modify the statement of work to address Y2K in existing information
technology operation and maintenance contracts. Each of the six locations audited had included
the NASA-directed Y2K requirements in solicitations and new contracts used to acquire
information technology assets. However, the Jet Propulsion Laboratory had not included the
NASA-directed requirements in all its applicable information technology operation and
maintenance contracts as of January 31, 1999. Jet Propulsion Laboratory management
attributed its delay to other workload priorities. Untimely incorporation of the Y2K compliance
requirements into NASA contracts adversely affects the Agency’s ability to meet OMB’s
milestones for Y2K renovation, validation, and implementation phases and increases the
potential for noncompliant Agency systems on January 1, 2000. Also, contractors may not be
held accountable for ensuring Y2K compliance if the requirements


                                                8
Appendix B


are not incorporated. We recommended that the NASA Chief Information Officer (1)
coordinate with the NASA Management Office at the Laboratory to establish a target date(s)
for management completion and (2) monitor management’s progress in meeting the target
date(s). Management concurred with both recommendations.

“Year 2000 Program Oversight of NASA’s Production Contractors,” Report Number
IG-99-004, December 17, 1998. NASA lacked reasonable assurance that its production
contractors would provide Y2K-compliant data to support the Agency’s key financial and
program management activities. This condition occurred because NASA had not asked the
two principal Department of Defense audit and contract administration agencies, the Defense
Contract Audit Agency and the Defense Contract Management Command, to conduct Y2K
reviews at NASA’s major contractor locations. As a result, the Agency risks using
noncompliant data that may adversely affect the Agency’s control, budgeting, program
management, and cost accounting activities. We made two recommendations to NASA relating
to the Y2K status of its major contractors. Management concurred with the intent of the
recommendations and issued a letter to the Defense Contract Audit Agency requesting data on
Y2K coverage of the Agency’s major contractors. In addition, NASA issued a letter to its
Center Procurement Officers instructing them to monitor Y2K problems identified by the
Defense Contract Audit Agency.

“Year 2000 Date Conversion – Assessment Phase,” Report Number IG-98-040,
September 30, 1998. Some NASA Centers did not have documented support for Y2K cost
estimates reported to OMB and did not prepare estimates using a consistent methodology.
Also, documentation did not always exist to support the manner in which Center assessments
and decisions for Y2K compliance were conducted. The audit showed that NASA Centers
also needed to improve the sharing of information on the status of Y2K compliance associated
with commercial off-the-shelf products. We made three recommendations to assist NASA in
addressing the Y2K date conversion problem. Management concurred with the two
recommendations concerning documentation for Y2K assessments and the sharing of
information on commercial off-the-shelf products. Management did not concur with the
recommendation concerning guidance for Y2K cost estimates, stating that adequate guidance
on cost estimation had been provided to NASA Centers. This issue remains unresolved.




                                               9
                        Appendix C. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aero-Space Technology
R/Chief Information Officer Representative
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Goddard Space Flight Center
Chief Counsel, John F. Kennedy Space Center
Director, Lyndon B. Johnson Space Center
Director, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Assistant to the President and Chair, President’s Council on Y2K Conversion
Director, Office of Management and Budget
Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget



                                               10
Appendix C

Non-NASA Federal Organizations and Individuals (Cont.)

Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               11
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Final Report on Review of NASA’s Year 2000 Day One Planning

Report Number: IG-00-00                                Report Date: December 00, 1999


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:               Federal:          State:         Local:


May we contact you about your comments?

Yes: __________                             No: __________

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation
Major Contributors to the Report
David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

James H. Pearce, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Barbara J. Smith, Program Assistant
